              OFFICE OF
              INSPECTOR
              GENERAL
              UNITED STATES POSTAL SERVICE




       Global Positioning System:
   End-to-End Platform and Actionable,
    Robust Reports Needed to Achieve
           Goals and Potential
          Return-on-Investment

         Management Advisory Report




                                        September 30, 2011

Report Number DR-MA-11-003
                                                                     September 30, 2011

                                               Global Positioning System: End-to-End
                                             Platform and Actionable, Robust Reports
                                               Needed to Achieve Goals and Potential
                                                                Return-on-Investment

                                                          Report Number DR-MA-11-003




IMPACT ON:                                   WHAT THE OIG RECOMMENDED:
Delivery and Transportation Operations       The OIG recommended that
                                             managment maximize existing GPS
WHY THE OIG DID THE AUDIT:                   functions and create internal best
To review the U.S. Postal Service’s use      practices for the existing GPS. We also
of Global Positioning System (GPS)           recommended exploring an end-to-end
technology and identify opportunities in     GPS platform that includes full-range
delivery and transportation operations.      functionality and reports for Postal
                                             Service vehicles. In addition, we
WHAT THE OIG FOUND:                          recommended establishing a cross-
Various opportunities exist to enhance       functional team of Postal Service
the use of GPS at the Postal Service.        managers to review existing barcode
GPS technology has been implemented          and scanning systems as well other
on only 3 percent of delivery vehicles       related tracking and scanning
and not on trucks that transport mail.       opportunities.
For delivery operations, management
uses standard GPS reports from the           WHAT MANAGEMENT SAID:
vendor (rather than customized reports)      Management generally agreed with the
and districts do not consistently use        findings and recommendations. They
exception data from the reports to           agreed to work with their vendor to
manage operations. The existing GPS          improve the existing GPS program and
for delivery vehicles has helped in street   develop an instructional webinar to
management and anecdotally curtailed         provide the field focusing on key reports
negative behavior, as well as provided a     and successful practices by Quarter 1,
basis for return-on-investment.              fiscal year 2012. Management indicated
However, the Postal Service could            the Information Technology group will
develop an end-to-end, single-sourced        take the lead in exploring the feasibility
GPS platform and back-office                 of an end-to-end platform as well as
accountability for the entire fleet of       establish a cross-functional team to
vehicles and trucks with a focus on          review existing barcode and scanning
taking costs out of the delivery and         technology.
transportation system.
                                             AUDITORS’ COMMENTS: The U.S.
                                             Postal Service OIG considers
                                             management’s comments responsive to
                                             the recommendations and corrective
                                             actions should resolve the issues.

                                             Link to review the entire report
September 30, 2011


MEMORANDUM FOR :            MEGAN J. BRENNAN
                            CHIEF OPERATING OFFICE AND EXECUTIVE VICE
                             PRESIDENT

                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Management Advisory Report – Global Positioning System:
                            End-to-End Platform and Actionable, Robust Reports
                            Needed to Achieve Goals and Potential Return-on-
                            Investment (Report Number DR-MA-11-003)

This report presents the results of our review of the Global Positioning System in the
U.S. Postal Service (Project Number 11XG025DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita Oliver, director, Delivery,
or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    Ellis A. Burgoyne
    Dean J. Granholm
    David E. Williams
    Susan M. Brownell
    James P. Cochrane
    Elizabeth A. Schaefer
    Philip F. Knoll
    Cynthia A. Mallonee
    Jeffrey L. Freeman
    Corporate Audit and Response Management
                                                  Table of Contents
Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 2

Existing GPS........................................................................................................................ 3

   Contract Structure............................................................................................................ 3

   Reporting Capabilities ..................................................................................................... 4

   Return-on-Investment ...................................................................................................... 7

   Postal Service Processes and Culture ........................................................................... 8

Future GPS and Tracking and Scanning Opportunities ..................................................... 8

   Contract Structure............................................................................................................ 8

   Reporting Opportunities .................................................................................................. 9

   ROI Opportunities .......................................................................................................... 10

   Replacing and Integrating Postal Service Delivery Systems ....................................... 10

   Tracking and Scanning Opportunities ........................................................................... 11

Recommendations ............................................................................................................ 13

Management’s Comments ................................................................................................ 15

Evaluation of Management’s Comments .......................................................................... 15

Appendix A: Additional Information................................................................................... 16

   Background .................................................................................................................... 16

   Objectives, Scope, and Methodology ........................................................................... 17

   Prior Audit Coverage ..................................................................................................... 18

Appendix B: Example of Reports from Existing GPS Vendor.......................................... 19

Appendix C: Management’s Comments ........................................................................... 24
Global Positioning System: End-to-End Platform and Actionable,                                   DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment


Introduction

U.S. Postal Service senior management expressed a desire to explore Global
Positioning System (GPS) technologies and opportunities that could benefit the Postal
Service (Project Number 11XG025DR000). Our objectives were to review the Postal
Service’s use of GPS and other technological applications to identify additional
opportunities in delivery and transportation operations. 1

The Postal Service owns and operates the largest civilian vehicle fleet in the world with
over 200,000 vehicles. The fleet covers both nationwide delivery operations between
local Post Offices and neighborhood delivery and pick-up points and network
transportation between cities and major facilities. Nationwide network transportation
consists of both contracted highway transportation 2 and transportation that is furnished
using Postal Service vehicles and employees — referred to as Postal Vehicle Service
(PVS). In fiscal year (FY) 2010, letter carriers and PVS drivers traveled about 1.25
billion miles with fuel costs totaling more than $315 million.

GPS can help prevent and detect carrier misconduct and serve to protect the Postal
Service’s brand name. We estimate the Postal Service could implement GPS on
approximately 189,000 Postal Service-owned and operated vehicles. 3

The Chicago District, with the assistance of Postal Service Headquarters, acquired
500 GPS devices during FY 2008 to assist in addressing mail delivery issues, reducing
carrier misconduct, and taking timely corrective action. Subsequently, Postal Service
Headquarters distributed an additional 4,710 GPS devices to all areas of operations to
allocate among their districts as needed. A total of 5,210 devices were installed on
vehicles as an enhancement to its street management process in 48 of the 74 districts.
This is about 3 percent of its delivery vehicle fleet (see Table 1). See Appendix A for
additional information about this review.




1
  Transportation Operations excludes approximately 4,000 PVS trailers and 16,000 highway contractor routes (HCRs)
covering more than 10,000 HCR suppliers providing transportation and box delivery services.
2
  As explained in Footnote 1, we excluded HCRs from the scope of this audit.
3
  As of February 2011, the Postal Service had 185,200 Postal Service-owned and operated long-life vehicles (LLVs),
flexible fuel vehicles, and minivans used for mail delivery. These exclude HCRs because their inclusion would require
legal involvement since they are not owned by the Postal Service.
                                                             1
Global Positioning System: End-to-End Platform and Actionable,                                   DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment



                     Table 1. Number of GPS Devices per Postal Service Area
                                   Area                  Number of GPS Devices
                        Great Lakes                                  1,053
                        Northeast                                      916
                                  4
                        Southeast                                      748
                        Western                                        505
                        Eastern                                        499
                        Pacific                                        499
                        Southwest                                      497
                        Capital Metro                                  493
                                NATIONAL TOTAL                       5,210
                      Source: Postal Service


Conclusion

The Postal Service’s existing GPS capability and supporting infrastructure is limited.
However, it could be expanded beyond a focus on tracking delivery vehicles to include a
technological solution for other tracking and scanning opportunities as a way to
complement customer service.

   Under the existing contract, GPS technology has been implemented on only
    3 percent of the delivery vehicles with some basic functionality. Although the Postal
    Service explored the use of GPS in new PVS vehicles more than 8 years ago, it was
    not able to implement GPS for its PVS trucks because of functionality issues.

   For delivery operations, management uses standard GPS reports from the vendor
    rather than customized reports, and districts do not consistently use the exception
    data from the reports to manage operations.

   The existing GPS for delivery vehicles has helped in street management and
    anecdotally curtailed negative behavior, as well as provided a basis for return-on-
    investment (ROI).

   The Postal Service has not fully institutionalized best practices and accountability
    processes for GPS.

Various opportunities exist to enhance GPS technology at the Postal Service. The
Postal Service could develop an end-to-end, 5 single-sourced GPS platform, and back-
office accountability for the entire fleet of vehicles and trucks.



4
 The Southeast Area was eliminated and districts were moved to other areas.
5
 An end-to-end platform could involve the Postal Service purchasing no equipment or incurring any up-front costs
and instead paying a monthly fee for generating reports, providing some analysis, and distributing the reports to the
Postal Service.


                                                           2
Global Positioning System: End-to-End Platform and Actionable,                               DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment

Such a platform could include:

      Development and use of customized actionable reports augmented with advanced
       data analytics with real-time alerts, geo-fencing, and exception reporting on
       speeding, fuel usage, and potential unproductive use of time.

      Increased route efficiency, vehicle maintenance, and performance evaluation for
       both engine/drive train and braking systems.

      Using new barcode and scanning systems as part of a larger technology solution to
       bolster service.

Moreover, because GPS is not a core function of the Postal Service, vendors could
manage this system, giving the Postal Service more ability to focus on its core delivery
and transportation functions. If the Postal Service implements such a system, it could
reap the benefits of having improved fleet management and take significant costs out of
its delivery and transportation system. Vendors estimated ROIs over the 3-year contract
period could range from $191 million to more than $435 million. 6

Existing GPS

Contract Structure

Although the Postal Service has 185,200 delivery vehicles, the existing GPS contract
covers only 5,210 vehicles, or 3 percent of the delivery fleet. The 5,210 GPS devices in
these vehicles were acquired under a hardware purchase and installation agreement
that includes a monthly airtime/monitoring fee that will cost more than $1.2 million for
FY 2011. The GPS provided some basic functions, such as tracking idle time, vehicle
starting and stopping, and the line of travel.

Because the Postal Service did not have an overall strategic framework and operational
plan for the use of GPS technology, it purchased GPS devices on an “as needed” basis.
The purchase did not require a Decision Analysis Report 7 or ROI projection, as it was
below certain thresholds. The total amount spent on GPS for delivery operations to date
is $3.2 million (see Table 2).




6
    These estimates have not been validated.
7
    A Decision Analysis Report is required for a capital investment of $5 million or more.


                                                             3
Global Positioning System: End-to-End Platform and Actionable,                                    DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment



                                    Table 2. Existing Contract Structure
                                                                Total
                                               Total         Hardware        Airtime Cost       Airtime
                                              Number             and          $19.95 per         Cost           Total
                   Required     Hardware        of          Installation      Month per         During        Contract
   Contract        Contract     Cost Per      Current           Costs         Vehicle for      FYs 2008        Cost to
   Structure        Length        Unit        Devices         Incurred         FY 2011          – 2010          Date
Hardware
Purchase and         1 yr.     $229         5,210        $1,193,090         $1,247,274        $805,397       $3,245,761
Installation
Source: U.S. Postal Service Office of Inspector General (OIG)


Prior to securing the existing GPS contract for delivery vehicles, the Postal Service
attempted to implement GPS technology for about 4,000 PVS vehicles during 2003–
2005 at a cost of $22.7 million. They concluded that PVS technology was not functional
and did not achieve planned goals because of significant data connectivity issues, lack
of resources, and inconsistent field compliance. Further, management stated the
system was too complex for either employees or supervisors to use. Consequently, the
Postal Service abandoned the initiative for PVS vehicles in FY 2008.

Reporting Capabilities

The Postal Service uses standard reports offered by the vendor to manage street
operations. Our review of delivery units in three districts revealed that GPS data and
reports were used in conjunction with other delivery reports as a part of street
management. There is also a standard type of exception report in the existing system
which uses e-mail alerts, but it has not been used consistently as a delivery
management tool.

Postal Service Headquarters recommended that districts use the following standard
reports to manage street operations: (1) Fleet Summary, (2) Detailed Activity, (3) Start
Stop, and (4) Fleet Status (see illustrations of reports in Appendix B). Through these
reports, the Postal Service can obtain almost any information available from the GPS,
including the following vehicle information:

   Amount of idling 8 time – potential wasted fuel.
   Excessive starting and stopping.
   Breadcrumb trail (a detailed graph showing the movement of vehicle).
   Improved line of travel and route optimization.
   Potential unproductive use of time. 9

These standard reports track a significant amount of data and, as a result, the
responsibility of identifying exceptions/problems is placed on Postal Service
supervisors, who are busy with their daily duties.

8
  Idling time is traditionally defined as a vehicle being turned on but not moving. However, with a GPS device, idling
time is recorded when the ignition is powered even if the engine is not turned on.
9
  Potential unproductive use of time can generally be identified by reviewing the Idle and Start and Stop reports.


                                                           4
Global Positioning System: End-to-End Platform and Actionable,             DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment



Alerts are part of the existing GPS and can provide a type of exception reporting with
summary e-mail notifications of specific issues directly to supervisors. These types of
reports could allow management to focus on specific carrier behavior, if needed. For
example, lllustration 1 shows an alert that has been sent to identify speed in excess of
designated miles per hour. This exception reporting allows delivery unit supervisors,
who are routinely short on time, to focus on exception data only.

         Illustration 1. A Generic Example of Setting an Alert for Excessive Speed




  Source: Generic Alert Report from Existing GPS Vendor


Similar to alerts for speeding, GPS also can be used to set alerts for entry to or exit from
a zone or location through a Geo-Fence application. The Postal Service can create
areas on a carrier route for delivery and stop locations as depicted in the green
highlights in Illustration 2.




                                                     5
Global Positioning System: End-to-End Platform and Actionable,                                   DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment



            Illustration 2. Generic Example of Creating a Geo-Fence for a Location




Source: Generic Geo-Fence Report from Current GPS Vendor


Delivery unit management stated they would have preferred to act on GPS data daily to
assist street management but expressed not having sufficient time to always identify
and follow-up on the exceptions. Developing strong customized exception reports can
give supervisors more time to follow up on specific areas of concern, help ensure carrier
accountability, and serve to protect the Postal Service’s brand name.

In addition, the Postal Service decided not to use the maintenance function offered by
its existing GPS vendor. One of the reasons offered was because of its regularly
scheduled vehicle maintenance cycles established by vehicle maintenance facilities.

However, the GPS maintenance function could potentially enhance the vehicle
maintenance system. For example, using the GPS maintenance feature could provide
timely notifications to perform tire rotations, oil changes, and updated data on engines 10
(see Illustration 3).




10
  The age of the majority of Postal Service vehicles could limit the engine data that is available from the maintenance
function.




                                                          6
Global Positioning System: End-to-End Platform and Actionable,                                DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment

                      Illustration 3. Example of Generic Maintenance Report




Source: Generic Maintenance Report from Existing GPS Vendor.


Postal Service Headquarters officials are preparing GPS standard operating instructions
on how to use the GPS reports to monitor street performance and assist in route
structure and optimization. However, these instructions are in the early stages of
refinement and implementation.

Return-on-Investment

The Postal Service has achieved some program benefits with GPS as a tool to assist in
street management of carrier routes and reducing negative carrier behavior at the time
of its rollout of limited GPS devices.

Furthermore, GPS is positioned to provide a ROI. Delivery Operations informed the OIG
that, beginning in FY 2011, Postal Service Headquarters estimated the Postal Service
could save nearly 15 minutes per vehicle per week for delivery units with GPS devices.
We were told the estimate was used to reduce the specific districts’ street operations
budgets by more than 65,000 hours, or about $2.7 million. 11 Because we could not
verify the 15-minute savings calculation, 12 we analyzed other GPS data to determine
whether report customization and data analysis could provide information for Postal
Service decisions and consideration.

The GPS idle time report data identified 166,927 instances of idling 15 minutes or more
for the 5,210 GPS vehicles from October 2010 through March 2011. This equated to
85,911 hours, with 90 percent of the idling instances ranging from 15 to 60 minutes. 13


11
   The 65,021 workhours multiplied by an estimated $42 an hour (city carrier level rate) equals $2,730,882.
12
   The Postal Service did not provide documentation to support calculation of the approximate 15-minute savings.
13
   There were 4,032 instances of idling more than 2 hours and one instance as high as 4 hours, but these extreme
instances of idling were believed to be mostly bad signals and GPS errors.


                                                         7
Global Positioning System: End-to-End Platform and Actionable,                                 DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment

If curtailed, this could equate to significant hours and fuel savings. In addition, time
spent idling may indicate unproductive time by the carrier.

One way to identify and evaluate unproductive time is through report customization and
data analysis of functions such as start/stop and idle time. The vendor stated that it
routinely provided business analysis services to GPS customers to gain insight to
corporate culture and focus on ROI opportunities. However, the Postal Service did not
seek this type of service from the vendor.

Postal Service Processes and Culture

The Postal Service has begun to develop best practices and processes for GPS. During
our review, the Postal Service began working on instructions to ensure that GPS data
collection devices are implemented in the most efficient manner. The instructions also
outline system roles and responsibilities for key headquarters, district, and unit
personnel. In addition, the instructions outline personnel training, system definitions,
naming conventions and expectations, and tracking.

Moreover, there is a significant opportunity for positive change in the Postal Service’s
delivery culture that could begin with management developing and communicating an
overall GPS strategy, creating performance measures, engaging all levels of the
organization in embracing technology, and using actionable reports to make informed
decisions. Technology is value neutral. The value that is attached to any given piece of
technology depends on who is using it, evaluating it, and what he or she does with it. If
GPS data is not used and acted upon, savings opportunities are lost.

Future GPS and Tracking and Scanning Opportunities

Contract Structure

GPS contractors offer a wide range of services. Through our research and discussions
with four GPS vendors, we were unable to identify any GPS vendor that provided
services to a fleet as large as the Postal Service’s. However, each of the vendors
researched indicated that it could accommodate a large-scale deployment and provide
the Postal Service with the required level of end-to-end functionality, corresponding
reports, and a contract structured to suit Postal Service needs. For example, vendors
indicated they could provide hardware, installation, repairs, software, training, advanced
analytics, exception reporting, and, if desired, an operations center. 14 Table 3 shows a
range of costs for a basic GPS (similar to the existing one used at the Postal Service for
some of its delivery vehicles) to an expanded GPS with advanced analytics, exception
reporting, and an operations center.




14
  An operations center would involve the vendor providing a staff of analysts to review and generate exception
reporting and distribute these reports to management for corrective action on exceptions.


                                                         8
 Global Positioning System: End-to-End Platform and Actionable,                              DR-MA-11-003
  Robust Reports Needed to Achieve Goals and Potential
  Return-on-Investment




                                  Table 3. Contract Structure Opportunities

                                    Monthly        Estimated                      Range of
                                    Service      Monthly Service                   Annual
 Expanded             Contract      Cost/per     Cost for 200,000      Contract   Contract      Estimated
  GPS 15              Structure       Unit            Units             Length      Cost          ROI 16
                   Varies
 All vendors       depending on     $30-$65         $6-13 million       3 years   $72-$156      $191-$435
                   client needs                                                    million        million
Source: OIG.


 Either the vendor who would provide the Postal Service with an end-to-end solution and
 all the required reports for its vehicle fleet could manage it entirely or it could have any
 degree of Postal Service involvement desired. As GPS is not a core mail delivery
 function of the Postal Service, this technology could be substantially outsourced and
 require limited Postal Service involvement in its day-to-day management and
 maintenance. This would allow the Postal Service to concentrate on fleet management
 and removing costs out of the delivery and transportation network/systems. In any
 event, research shows the Postal Service should consider the following when selecting
 a vendor and contract/service:

       Knowing the top three operational issues that need to be resolved.
       Defining “must have” features and “like to have” features.
       Understanding ROI targets/performance, per route, per vehicle, per day.
       Identifying technology partners who can deliver “must have” features and provide a
        system to capture ROI targets.

 Reporting Opportunities

 As mentioned earlier, the Postal Service did not purchase customized reporting and
 data analytics from the existing GPS vendor. With customization, the Postal Service can
 isolate activities that may require referral for further management or investigative
 activities. Although management stated GPS data alone is typically insufficient in
 grievance hearings and other evidence (such as Managed Service Points (MSP)
 scans), overtime records and direct observations are needed. There are opportunities
 for the Postal Service and the OIG to collaborate and determine through data mining
 indicators of performance issues that need further evaluation.

 With actionable, robust customized reports from the GPS augmented with advanced
 data analytics, the Postal Service could easily identify “actionable exceptions” for follow-
 up and resolution. These reports could include real-time alerts, geo-fencing, and
 exception reporting on speeding, fuel usage, and potential unproductive use of time.
 Implementation of the GPS and a robust reporting capability alone will not make the

 15
      Expanded GPS includes four vendors (the current vendor and three other).
 16
      These are gross estimates that have not been validated.


                                                           9
Global Positioning System: End-to-End Platform and Actionable,                                   DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment

program successful. Outcome-oriented management will be needed as these reports
will be key to increasing the visibility and efficiency of the fleet as well as reducing costs
and enhancing supervisory capacity.

ROI Opportunities

Several opportunities exist to bolster the ROI. The three main sources of ROI from GPS
technology include reducing idle time (fuel costs), maintenance costs, and overtime
costs. Vendors estimated a range of costs from $191 million to more than $435
million. 17

If the Postal Service installed GPS devices on all 185,200 18 delivery vehicles and used
its estimated savings of approximately 15 minutes per device per week, we estimate
there could be a potential annual savings of more than 2.4 million 19 workhours, or a net
savings of more than $23 million. 20

The areas of savings estimated by Postal Service Headquarters per GPS device per
week, plus the potential of idle time and unproductive carrier time present opportunities
to assist in determining an ROI. Further, there are other cost savings to consider, such
as overtime and route structure savings. The Postal Service would need to analyze all
potential cost savings and the resulting impact on investments since an end-to-end,
single source contract solution entails an annual investment.

Replacing and Integrating Postal Service Delivery Systems

We identified two delivery/support systems that could potentially be eliminated if the
Postal Service broadly implemented GPS: (1) Automated Vehicle Utilization System
(AVUS) and (2) the MSP system, 21 which is integrated with the Delivery Operations
Information System (DOIS). 22 The potential cost avoidance for eliminating these
systems totals less than $350,000 annually. Because of the limited number of systems
that could potentially be replaced, any financing of a new system would have to be the
result of returns generated from using that system (see the Return on Investment
section of this report).

17
   We did not validate the data provided by the vendors. The Postal Service will need to validate these numbers in a
Decision Analysis Report.
18
   The 185,200 delivery vehicles are out of the total delivery and transportation vehicle fleet of 200,300. We isolated
delivery vehicles in this section because these are the only vehicles in which the 15-minute savings per week per
device were attributed.
19
   The 185,200 vehicles multiplied by approximately 15 minutes multiplied by 52 weeks equals 144,456,000 minutes
divided by 60 minutes per hour equals 2,407,600 estimated workhour savings. The 2,407,600 estimated workhour
savings multiplied by an estimated $42 an hour (city carrier level rate) equals $101,119,200 million annually.
20
   The cost of equipping all 185,200 delivery vehicles with GPS would be at least $77,784,000 annually ($35 a month
per device multiplied by 12 months multiplied by 185,200 delivery vehicles). Estimated savings of $101,119,200
minus the $77,784,000 additional investment equals a net savings of $23,335,200.
21
   A tool designed to monitor consistency of delivery time and enhance street management through use of a mobile
scanner.
22
   AVUS provides Delivery and Vehicle Maintenance Facility managers with daily delivery vehicle activity information;
and MSP is part of DOIS, which provides Delivery Operations with delivery unit management information. DOIS
assists with analyzing route inspection information and performing route adjustments.


                                                          10
Global Positioning System: End-to-End Platform and Actionable,                                   DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment

We also looked at what delivery systems could be integrated with the GPS over time, as
the technology is refined and embraced (see Table 4).

                                  Table 4. Potential Systems Integration

               Carrier Optimal Routing (COR)
               DOIS
               Customer Service Daily Reporting System
               Collection Point Management System
               Solution Enterprise Asset Management
             Source: OIG


In addition, GPS technology could provide an ancillary benefit in eliminating manual
scanning at certain locations by carriers’ MSP 23 while delivering mail on the street. The
GPS could provide data on carrier locations without carrier action, thereby helping to
preserve data integrity, as well as the chances of missed scans.

Tracking and Scanning Opportunities

The Postal Service has an opportunity to optimize its data collection capabilities. The
Postal Service already collects data by using carriers to scan barcodes to identify mail
in transit or upon delivery of a package. They also use scans to identify LLV and truck
locations at certain points in the network. However, scanning of barcodes is “active
scanning,” which requires a carrier or clerk to hold a reader device over a barcode
image to obtain information on a mailpiece. Opportunities may exist to use “passive
scanning” technologies along with GPS to track mail on a real-time basis in addition to
tracking vehicles. Passive scanning occurs automatically when an object passes a
reading device and transmits information about the mailpiece.

Tracking and scanning methods can involve low-tech or high-tech solutions or a
combination of both solutions and should be based on cost and business needs. Over
time certain technologies — such as radio frequency identification (RFID) — have come
down in cost and may also be viable options.




23
  City carriers are instructed to use the mobile scanner to scan bar codes placed at service points reflecting key
elements of the carrier workday such as first delivery and last delivery.


                                                          11
Global Positioning System: End-to-End Platform and Actionable,                    DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment



Table 5 shows scanning devices, types, methods, and sources.

                            Table 5. Scanning Sources and Methods
                                                                   Method of       How Scans Are
          Device                      What is Scanned                 Scans          Conducted
Mobile Handheld                     Barcode                      Active            Carrier/Driver
Passive Scanners Installed
on Vehicles Along With GPS          Real-Time Barcode            Active/Passive    Carrier/Device
2D Tag                              Barcode Tags                 Active/Passive    Carrier/Device
RFID                                Real-Time Tags               Passive           Device

In addition to barcode scans and GPS, mail and equipment tracking and scanning
solutions could involve 2D Barcode technology and RFID as follows:

   2D Barcode technology uses a two-dimensional barcode graphical image that stores
    information both horizontally — as one-dimensional bar codes do — and vertically. As
    a result of that construction, 2D Barcodes can store up to 7,089 characters,
    significantly greater storage than is possible with the 20-character capacity of the
    currently used one-dimensional barcode.

    Some potential advantages of 2D Barcodes for the Postal Service would be the ability
    to store large amounts of data related to shipping date, product quantities, and
    product codes; and the ability to attach the barcodes to mail products for continual
    updating. For example, this technology could decrease the time needed for postal
    clerks at the business mail entry unit to enter information upon receipt and potentially
    reduce input errors (see Illustration 4 for an example of a 2D Barcode).

                                    Illustration 4. 2D Barcode




                                       Source: Wikipedia.


 RFID is a technology that uses radio waves to exchange data between a reader and
  an electronic tag attached to an object for the purpose of identification and tracking.
  RFID involves applying RFID tags to items, boxes, or pallets. Tags vary greatly in
  size, shape, and capabilities (see Illustration 5).




                                                   12
Global Positioning System: End-to-End Platform and Actionable,              DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment




                                       Illustration 5. RFID Tag




                                    Source: Wikipedia.


    RFID tags could track packages in real time from the moment of mail acceptance
    until its final destination and at every point in between. This system would require
    little to no human interaction with the packages as sensors would feed the tracking
    data to computers. This would optimize routing through the processing network and
    reduce the amount of the time it takes for mail to reach its destination. Simply put,
    RFID works like a toll tag; drivers with toll tags no longer have the traffic back-ups or
    slowdowns created by tollbooths. It would be equivalent to bypassing human
    interaction and using the most optimal way to reach your destination. The package
    tracking data would be linked to the GPS transmitter in the carrier’s vehicle, allowing
    the customer to go online and see the exact location of the package.

This RFID functionality in an expanded GPS could potentially make the Postal Service
more competitive in the package/parcel market. The OIG sponsored a blog on RFID
that showed favorable results. As to whether the Postal Service should invest in RFID,
137 of 217 participants (63 percent) responded that they should invest. When asked if
the Postal Service were to invest in RFID, would the Postal Service become their
preferred shipping partner, 125 of 181 participants (69 percent) responded that they
would become their preferred partner. In addition, the blog asked if they would be willing
to pay for the additional RFID technology and 94 of 187 participants (50 percent)
responded they would be willing to pay.

Recommendations

We recommend the chief operating officer and executive vice president:

1. Maximize existing Global Positioning System functions and reports.

2. Create internal best practices and accountability processes, including those related
   to carrier accountability, for the existing Global Positioning System and integrate
   them into the Postal Service culture.

3. Explore an end-to-end Global Positioning System platform that includes a full-range
   of functionality and reports covering applicable Postal Service vehicles.


                                                   13
Global Positioning System: End-to-End Platform and Actionable,       DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment



4. Establish a cross-functional operational team of Postal Service management to
   review existing barcode and scanning systems as well as Global Positioning System
   and other related tracking and scanning opportunities to bolster efficiency and
   service, as part of a larger technology solution.




                                                   14
Global Positioning System: End-to-End Platform and Actionable,           DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment



Management’s Comments

Management generally agreed with the findings and recommendations in the report.
Management stated plans for expanding this program in Delivery Operations were put
on hold due to the current financial situation of the U. S. Postal Service. Management
stated they will continue to work with their vendor to improve the GPS program in
Delivery Operations to maximize GPS with customized reports as necessary and
feasible. However, management indicated that the report did not validate the vendor
estimates of cost savings or address the airtime costs. In regard to maximizing existing
GPS functions, management plans to share best practices by developing an
instructional webinar for field locations that will include uses for key reports and share
successful practices by FY 2012, Quarter 1. Management also indicated the Information
Technology group will take the lead in exploring the feasibility of an end-to-end platform
utilizing GPS to assist in managing the fleet and establishing a cross-functional team to
review existing barcode and scanning technology as well as GPS and other related
tracking systems. Management plans to issue a report on these issues at the end of FY
2012. See Appendix C for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. We acknowledge
the difficult financial times, and agree the vendor estimates of potential savings need
further validation and airtime expense is potentially a major cost.




                                                   15
Global Positioning System: End-to-End Platform and Actionable,                                DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment



                                Appendix A: Additional Information

Background

The Postal Service owns and operates the largest civilian vehicle fleet in the world with
over 200,000 vehicles. The fleet covers both nationwide delivery operations between
local Post Offices and neighborhood delivery and pick-up points and network
transportation between cities and major facilities. Nationwide network transportation
consists of both contracted highway transportation 24 and transportation that is furnished
using Postal Service vehicles and employees — referred to as PVS. In FY 2010, letter
carriers and PVS drivers traveled about 1.25 billion miles with fuel costs totaling more
than $315 million.

GPS can help prevent and detect carrier misconduct and serve to protect the Postal
Service’s brand name. We estimate the Postal Service could implement GPS on
approximately 189,000 Postal Service-owned and operated vehicles. 25

The Chicago District, with the assistance of Postal Service Headquarters, acquired
500 GPS devices during fiscal year FY 2008 to assist in addressing mail delivery
issues, reducing carrier misconduct, and taking timely corrective action. Subsequently,
Postal Service Headquarters distributed an additional 4,710 GPS devices to all areas of
operations to allocate among their districts as needed. A total of 5,210 devices were
installed on vehicles as an enhancement to its street management process in 48 of the
74 districts. This is about 3 percent of its delivery vehicle fleet (see Table 6).




24
  As explained in Footnote 1, we excluded HCRs from the scope of this audit.
25
  As of February 2011, the Postal Service had 185,200 Postal Service-owned and operated LLVs, flexible fuel
vehicles, and minivans used for mail delivery. These exclude HCRs because their inclusion would require legal
involvement since they are not owned by the Postal Service.


                                                        16
Global Positioning System: End-to-End Platform and Actionable,                    DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment



                       Table 6. Number of GPS Devices per Postal Service Area
                                     Area                Number of GPS Devices
                          Great Lakes                                1,053
                          Northeast                                    916
                                    26
                          Southeast                                    748
                          Western                                      505
                          Eastern                                      499
                          Pacific                                      499
                          Southwest                                    497
                          Capital Metro                                493
                                  NATIONAL TOTAL                     5,210
                        Source: Postal Service


Objectives, Scope, and Methodology

Our objectives were to review the Postal Service’s use of GPS and other technological
applications to identify additional opportunities in delivery and transportation operations.
Specifically, we examined the Postal Service’s existing GPS and its associated contract
structure and evaluated opportunities to further exploit GPS and integrate related
technology. We also:

      Identified the universe of GPS devices by district.

      Reviewed the policy for implementing GPS in the Postal Service along with training
       for using the GPS software.

      Identified available reports in the GPS software and how they are used.

      Judgmentally selected the Chicago District for review, because it has employed GPS
       technology for the longest amount out time. Randomly sampled two additional
       districts for review (Atlanta and South Florida) to identify how they are using GPS.

      Interviewed several GPS vendors 27 to determine what GPS technologies are
       offered.

We conducted this review from February through September 2011 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on August 24, 2011, and included their comments where appropriate.




26
     The Southeast Area was eliminated and districts were moved to other areas.
27
     We did not validate any claims or assertions offered by the four vendors.


                                                          17
Global Positioning System: End-to-End Platform and Actionable,            DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment

To conduct this review, we relied on computer-processed data GPS data from the
current GPS vendor. We did not test the validity of controls over these systems.
However, we determined that the data was sufficiently reliable for the purpose of this
report by confirming our analysis and results with Postal Service managers and other
data sources.

Prior Audit Coverage

The OIG identified one audit directly related to our objectives that was issued in the past
several years. Management of City Letters Carriers’ Street Performance (Report
Number DR-MA-09-001(R), dated March 26, 2009) found opportunities for the Postal
Service to use controls such as GPS technology to thwart instances of carriers
engaging in misconduct ranging from theft of time to inappropriate behavior while
delivering mail.

The first installation of GPS technology in the Chicago District provides a greater
opportunity to monitor route activities in real time and reduce city letter carriers’ undue
time charges. The OIG recommended deploying additional GPS devices in the Chicago
District for more effective monitoring and tracking during street delivery. Management
partially agreed with our recommendation and provided an alternate solution to
providing devices in districts other than Chicago.




                                                   18
Global Positioning System: End-to-End Platform and Actionable,             DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment

              Appendix B: Example of Reports from Existing GPS Vendor

Fleet Summary Report

With the Fleet Summary report, a range of dates (day/week/month) can be reviewed
summarizing:

   Number of vehicle stops.
   How long vehicle is stopped.
   Average time vehicle was stopped.

Management can use the Fleet Summary report to determine any route or carrier
performance issues. A location zone (which includes ZIP Code™, route number,
timeframe, and address) is programmed in the GPS and a sequence of deliveries is
listed as a series of points on the route along with the amount of time from the last
inspection (see Illustration 6).

                              Illustration 6. Fleet Summary Report




Source: Generic Fleet Summary Report from Existing GPS Vendor.

Start/Stop Report

The Start/Stop report details the turning on and off for each incident of the vehicle. This
report is used to monitor carriers with excessive stops on their route. For example, a
carrier might stop 50 times on a route. If the manager finds 50 stops on that particular
route excessive, he or she would need to investigate and provide correction, if needed
(see Illustration 7).



                                                    19
Global Positioning System: End-to-End Platform and Actionable,             DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment




                                 Illustration 7. Start/Stop Report




Source: Generic Report from Existing GPS Vendor


Fleet Status Report

The Fleet Status report shows the location of the vehicle and whether it is in motion.
This report could be printed for a delivery unit or a range of delivery units. A supervisor
or manager can run the report in the morning to ensure that all vehicles are in the
parking lot, the GPS signal is working, and the vehicle has not been vandalized (see
Illustration 8).




                                                   20
Global Positioning System: End-to-End Platform and Actionable,                                            DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment



                                      Illustration 8. Fleet Status Report

Flags Legend G: GPS P: Ping S: Speeding O: Old M: Moving I: Ignition
Mobile Date/Time                 Status Driver Location                        City            St ZipIP MPH Heading Flags
          5/12/2011 1:04:43 PM                                                 New                              SW
0208805                          Stopped -      75 S Lark St                                   LA 70124     0              G-------
          CDT                                                                  Orleans                          (215°)
          5/12/2011 3:47:25 PM                                                 New                                         G--M-
0208844                          Moving    -    770 S Galvez St                                LA 70119     0 E (92°)
          CDT                                                                  Orleans                                     I--
          5/12/2011 3:48:05 PM                                                 New                                         G--M-
0210617                          Moving    -    3912 Paris Ave                                 LA 70122    17 S (175°)
          CDT                                                                  Orleans                                     I--
          5/12/2011 3:47:10 PM                                                 New                                         G--M-
0210655                          Moving    -    4195 Dumaine St                                LA 70119     4 SE (128°)
          CDT                                                                  Orleans                                     I--
          5/12/2011 3:48:07 PM                  70124-006-PT13, :39, 303       New
0215033                          Stopped -                                                     LA 70124     0 E (88°)      G-------
          CDT                                   HAY PL                         Orleans
          5/12/2011 3:35:12 PM                                                 New
0215140                          Stopped -      86 Wren St                                     LA 70124     0 E (91°)      G-------
          CDT                                                                  Orleans
          5/12/2011 1:50:14 PM                                                 New
0215145                          Stopped -      1446 Governor Nicholls St                      LA 70116     0 SE (141°) G-------
          CDT                                                                  Orleans
Source: Generic Report from Current GPS Vendor.


Detailed Activity Report

The Detailed Activity report is a “real-time” report that collects data every 2 seconds and
transmits it every 5 minutes. This report includes data such driver, location, miles
driven, and whether the vehicle is moving. It is recommended that supervisors examine
this report during the day (see Illustration 9).

                                  Illustration 9. Detailed Activity Report
  Flags Legend G: GPS P: Ping S: Speeding O: Old M: Moving I: Ignition

Time       Driver      Location                City               St   ZIP            Miles       MPH Heading             Flags
Wednesday, May 11, 2011

6:01:55
           -           1418 Lafayette St       Fort Wayne         IN   46802             0.0         0 NW (331°)          GO---I--
AM CDT
6:02:19
           -           1418 Lafayette St       Fort Wayne         IN   46802             0.0         0 N (357°)           GO------
AM CDT
7:59:43
           -           1399 Barr St            Fort Wayne         IN   46802             0.0         0 S (182°)           G----I--
AM CDT
8:01:22
           -           1400 Lafayette St       Fort Wayne         IN   46802             0.0         4 N (355°)           G--M-I--
AM CDT
8:03:23
           -           182 W Douglas Ave       Fort Wayne         IN   46802             0.3        18 W (291°)           G--M-I--
AM CDT
8:04:32
           -           265 W Douglas Ave       Fort Wayne         IN   46802             0.1         0 SE (153°)          G-------
AM CDT
8:09:59
           -           265 W Douglas Ave       Fort Wayne         IN   46802             0.0         0 E (111°)           G----I--
AM CDT
8:10:37
           -           288 W Douglas Ave       Fort Wayne         IN   46802             0.1         6 W (266°)           G--M-I--
AM CDT
Source: Generic Report from Existing GPS Vendor




                                                             21
Global Positioning System: End-to-End Platform and Actionable,            DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment



The Detailed Activity report prints a breadcrumb trail (route history) in another window to
show where the vehicle traveled. The breadcrumb trail could be used to determine line
of travel, route optimization, and it could assist other street management activities (see
Illustration 10).

                               Illustration 10. Breadcrumb Trail




               Source: Generic Breadcrumb Trail from Current GPS Vendor




                                                   22
Global Positioning System: End-to-End Platform and Actionable,                                DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment



Idle Time Report

Idling time is when the vehicle engine is turned on and there is no physical movement
of the vehicle for over 2 minutes. Idling time is not recorded until after 2 minutes has
elapsed. A station manager might use the Idling Time report to see all carriers who idle
more than 15 minutes and identify unnecessary fuel costs (see Illustration 11).

                                    Illustration 11. Idle Time Report
         Idle Time > = 15 Minutes
                                                                                                  Idle
          Start           End             Driver           Location       City    St ZIP
                                                                                                 Time
          Wednesday, May 11, 2011

            10:04:45 AM    10:23:18 AM      Polytechnic    832 N Hughes
                                                                          Amarillo TX 79107    00:18:33
                CDT            CDT             1210        St
            11:11:41 AM    11:56:16 AM      Polytechnic    832 N Hughes
                                                                          Amarillo TX 79107    00:44:35
                CDT            CDT             1210        St
            2:32:30 PM     2:53:43 PM       Polytechnic    832 N Hughes
                                                                          Amarillo TX 79107    00:21:13
               CDT            CDT              1210        St
            3:05:21 PM     4:10:49 PM       Polytechnic    832 N Hughes
                                                                          Amarillo TX 79107    01:05:28
               CDT            CDT              1210        St

          Per Day                                                                             02:29:49

          Per Mobile                                                                          02:29:49
         Source: Generic Report from Existing GPS Vendor




                                                      23
Global Positioning System: End-to-End Platform and Actionable,   DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment



                           Appendix C: Management’s Comments




                                                   24
Global Positioning System: End-to-End Platform and Actionable,   DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment




                                                   25
Global Positioning System: End-to-End Platform and Actionable,   DR-MA-11-003
 Robust Reports Needed to Achieve Goals and Potential
 Return-on-Investment




                                                   26
